                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00919-228


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

 New Mexico VA Health Care System 

     Albuquerque, New Mexico 





August 1, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         Medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                          CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of June 2, 2014, at the following
CBOCs which are under the oversight of the New Mexico VA Health Care System and
Veterans Integrated Service Network 18:

	   Northwest Metro CBOC, Rio Rancho, NM

	   Truth or Consequences CBOC, Truth or Consequences, NM

Review Results: We conducted four focused reviews and made recommendations
in all of the review areas:

Environment of Care.

	   Ensure that patients’ personally identifiable information is protected and secured at
     the Truth or Consequences CBOC.

Alcohol Use Disorder.

	   Ensure that CBOC/PCC Registered Nurse Care Managers receive motivational
     interviewing and health coaching training within 12 months of appointment to Patient
     Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Consistently provide        written   medication   information   that    includes   the
     fluoroquinolone.

	   Provide medication counseling/education that includes the fluoroquinolone.

	   Document the evaluation of patient’s level of understanding for the medication
     education.

Designated Women’s Health Providers’ Proficiency.             Ensure that all Designated
Women’s Health Providers:

	   Maintain proficiency as required for the provision of women’s health care.




VA OIG Office of Healthcare Inspections                                                    i
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


	   Are designated with the women’s health indicator in the Primary Care Management
     Module.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 14–18, for the full text of the Directors’ comments.) We consider
recommendation 1 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                       JOHN D. DAIGH, JR., M.D.

                                                      Assistant Inspector General for

                                                         Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                    ii
                        CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                        1
                       CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                              CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Northwest Metro
and  Truth or Consequences CBOCs. The table below shows the areas reviewed for this topic.
The area marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                    Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                              3
                              CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


NM              Areas Reviewed (continued)                                    Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
 X     Documents containing patient-identifiable          Documents (X-ray radiographic films) containing
       information are not laying around, visible, or     patient-identifiable information were left visible
       unsecured.                                         or unsecured at the Truth or Consequences
                                                          CBOC.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation

1. We recommended that patients’ personally identifiable information is protected and secured
at the Truth or Consequences CBOC.




VA OIG Office of Healthcare Inspections                                                                        4
                              CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 37 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       NIAAA guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 28 (52 percent) of 54 RN Care
       received motivational interviewing training        Managers did not receive motivational
       within 12 months of appointment to PACT.           interviewing training within 12 months of
                                                          appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 18 (33 percent) of 54 RN Care
       received VHA National Center for Health            Managers did not receive health coaching
       Promotion and Disease Prevention-approved          training within 12 months of appointment to
       health coaching training (most likely TEACH        PACT.
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

2. We recommended that CBOC/PCC Registered Nurse Care Managers receive motivational
interviewing and health coaching training within 12 months of appointment to Patient Aligned
Care Teams.




VA OIG Office of Healthcare Inspections                                                                 5
                              CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 11 (28 percent) of 39 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that
       medications was provided at the end of the        23 (59 percent) of 39 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   28 (72 percent) of 39 patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 12 (31 percent) of 39 patients.
       education provided.
       The facility complied with local policy.

Recommendations

3. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

4. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

5.   We recommended that staff provide medication counseling/education as required.

6. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                      6
                              CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic.  The areas marked as NM did not meet applicable requirements and needed
improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
 X     CBOC and PCC DWHPs maintained                   We found that 7 of 21 DWHPs with panels
       proficiency requirements.                       comprised of less than 10 percent women
                                                       veterans at the CBOC and/or PCCs did not have
                                                       evidence of implementation of alternative plans
                                                       to ensure ongoing proficiency in WH care.
 X     CBOC and PCC DWHPs were designated              We found that 19 of 21 DWHPs were not
       with the WH indicator in the PCMM.              designated with the WH indicator in the PCMM.

Recommendations

7. We recommended that clinical executive/primary care leaders ensure that CBOC/PCC
Designated Women’s Health Providers maintain proficiency as required for the provision of
women’s health care.

8. We recommended that the chief of staff consistently ensure that all Designated Women’s
Health Providers are designated with the women’s health indicator in the Primary Care
Management Module.




VA OIG Office of Healthcare Inspections                                                              7
                                                                     CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM
                                                                                                                                   Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight3.
The table below provides information relative to each of the CBOCs.

                                                                                            Uniques4                                 Encounters4

                                Station                         CBOC
       Location        State                  Locality5                       MH7        PC8      Other9       All       MH7        PC8       Other9      All
                                   #                             Size6
    Northwest
    Metro             NM       501GM       Urban             Mid-Size           688      2,436      1,780     3,071      3,640      6,842      4,726    15,208
    Santa Fe          NM       501GK       Urban             Mid-Size           833      2,224      1,363     2,532      3,152      7,102      3,606    13,860
    Farmington        NM       501GB       Urban             Mid-Size           723      2,000      1,352     2,243      2,788      8,064      3,014    13,866
    Artesia           NM       501GA       Rural             Mid-Size           414      1,932         957    1,997      1,530      7,017      3,052    11,599
    Las Vegas         NM       501G2       Highly Rural      Mid-Size           531      1,786      1,261     1,928      2,339      6,151      4,309    12,799
    Durango           CO       501GJ       Rural             Mid-Size           584      1,856         704    1,912      1,801      4,506      1,646      7,953
    Alamogordo        NM       501GI       Rural             Mid-Size           121      1,562         292    1,598        523      5,464        494      6,481
    Gallup            NM       501GD       Rural             Mid-Size           536      1,324         772    1,538      2,737      4,449      2,247      9,433
    Silver City       NM       501GC       Rural             Small              340      1,441         736    1,479      1,683      6,320      2,454    10,457
    Raton             NM       501HB       Highly Rural      Small              249        945         818      996      1,102      6,504      4,041    11,647
    Espanola          NM       501GE       Rural             Small              277        897         577      964        842      3,211      2,062      6,115
    Truth or
    Consequences      NM       501GH       Highly Rural      Small               51        709          98      713        362      3,567        119      4,048

3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         8
                          CBOC and PCC Reviews New Mexico VA Health Care System, Albuquerque, NM


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                               Tele-Health
              CBOC                                            Ancillary Services12
                                     Services11                                                 Services13
    Northwest Metro                   Dental                      Pharmacy                  Tele Primary Care
                                    Optometry                  Diabetic Retinal
                                                                  Screening
                                                              MOVE! Program14
    Santa Fe                              ---                    Social Work                Tele Primary Care
                                                                                                Tele Case
                                                                                              Management
    Farmington                            ---                   Social Work                 Tele Primary Care
                                                               MOVE! Program

    Artesia                               ---                     Social Work               Tele Primary Care
    Las Vegas                             ---                   Social Work                 Tele Primary Care
                                                                 Nutrition
                                                               MOVE! Program
    Durango                               ---                       ---                     Tele Primary Care
                                                                                                Tele Case
                                                                                              Management
    Alamogordo                            ---                   Diabetic Retinal            Tele Primary Care
                                                                   Screening
                                          ---                    Social Work                Tele Primary Care
    Gallup
                                          ---                     Social Work               Tele Primary Care
    Silver City
                                          ---                     Social Work               Tele Primary Care
    Raton
                                          ---                           ---                 Tele Primary Care
    Espanola
    Truth or                              ---                           ---
    Consequences
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                            9
                                                                   CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM
                                                                                                                                 Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition. The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
                e

Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                  10
                                                                   CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM




                e
Data Definition. The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                    11
                                                                   CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.
VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
excluded from this metric.


VA OIG Office of Healthcare Inspections                                                                                                                13
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM
                                                                                  Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                Memorandum


           Date:       July 10, 2014

          From:        Director, VA Southwest Health Care Network (10N18)

       Subject: 	      CBOC and PCC Reviews of the New Mexico VA Health
                       Care System, Albuquerque, NM

             To:       Director, Denver Office of Healthcare Inspections (54DV)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the attached facility responses and action plans detained
          in this draft report of the Community Based Outpatient Clinic and
          Primary Care Clinic Reviews of the New Mexico VA Health Care
          System, Albuquerque, NM.

       2. If you have additional questions or concerns, please contact Robert
          Baum, VISN 18 Executive Officer to the Network Director, at
          (480) 397-2777.


           (original signed by:)
           Elizabeth Joyce Freeman 

           Acting Network Director 





VA OIG Office of Healthcare Inspections                                                   14
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM
                                                                                  Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                Memorandum


           Date:       July 7, 2014

          From:        Interim Director, New Mexico VA Health Care System,
                       (501/00)

       Subject:        CBOC and PCC Reviews of the New Mexico VA Health
                       Care System, Albuquerque, NM

             To:       Director, VA Southwest Health Care Network (10N18)

       1. I have reviewed and concur with the findings and recommendations in
          the draft report of the Office of Inspector General Community Based
          Outpatient Clinic and Primary Care Clinic Reviews conducted the week
          of June 2, 2014.

       2. Corrective action plans have 	been established, with some being
          already implemented, and target completion dates have been set for
          the remaining items as detailed in the attached report.

           (original signed by:)
           James L. Robbins, MD
           Interim Director




VA OIG Office of Healthcare Inspections                                                   15
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1.          We recommended that patients’ personally identifiable
information is protected and secured at the Truth or Consequences CBOC.

Concur

Target date for completion: June 5, 2014

Facility response: The Ben Archer Health Center contract CBOC Staff secured the room
in which the patient (X-rays) were located on the day of the visit. The next day the
patient identifiable material (X-rays) were moved to the patient file room at the Ben
Archer Health Center contract CBOC and a key pad lock was installed.

Recommendation 2. We recommended that CBOC/PCC Registered Nurse Care
Managers receive motivational interviewing and health coaching training within 12
months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: September 30, 2014

Facility response: Motivational interviewing and health coaching training will be provided
for all existing CBOC/PCC Registered Nurse Care Managers without documentation of
recieving this training within 12 months of appointment to Patient Aligned Care Teams.
The list of CBOC/PCC Registered Nurse Care Managers will be updated to include the
date MI and TEACH training was completed. Training will be documented in the Talent
Management System.

Recommendation 3.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: January 15, 2015

Facility response: A click box will be added to the Medication Reconciliation Note
template completed at the end of each visit. The click box will document if the patient is
prescribed a fluoroquinolone and the provider will be provided an opportunity to
document verbal counseling and written education. Use of the templated medication




VA OIG Office of Healthcare Inspections                                                   16
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


reconciliation note and click box will permit monthly compliance monitoring by
Pharmacy.

Recommendation 4.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: January 15, 2015

Facility response: At the end of each encounter patients are provided a copy of the
medication reconciliation note. A new click box will document if the patient is prescribed
a fluoroquinolone. Use of the templated medication reconciliation note and click box will
permit monthly compliance monitoring by Pharmacy.

Recommendation 5.           We recommended              that   staff   provide   medication
counseling/education as required.

Concur

Target date for completion: January 15, 2015

Facility response: In addition to existing methods to provide the fluoroquinolone
medication guides to CBOC/contract CBOC patients (by the local contracted filling
pharmacy or with the prescription if mailed) patients will be provided a copy of the
revised medication reconciliation note which will be modified to include documentation
of patient education and counseling on the newly prescribed fluoroquinolone. Use of the
templated medication reconciliation note will permit monthly compliance monitoring by
Pharmacy.

Recommendation 6. We recommended that staff document the evaluation of patient’s
level of understanding for the medication education.

Concur

Target date for completion: January 15, 2015

Facility response: Documentation of understanding will be added at the end of the
medication reconciliation note using a click box. The provider can click the box
indicating acknowledged understanding or if the patient/caregiver does not understand
the provider will be prompted to document more information on what is needed to
overcome barriers to learning. Use of the templated medication reconciliation note with
click boxes will permit monthly compliance monitoring by Pharmacy.

Recommendation 7. We recommended that clinical executive/primary care leaders
ensure that CBOC/Primary Care Clinic Designated Women’s Health Providers maintain
proficiency as required for the provision of women’s health care.



VA OIG Office of Healthcare Inspections                                                   17
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM


Concur

Target date for completion: December 31, 2014

Facility response: The seven providers who require alternate plans (panel <10%
women) to ensure ongoing proficiency as a women’s health care provider will be
required to attend either a Women’s Health Mini-Residency or attend a Women's Health
CME training (approx. 20 hrs) before the end of the calendar year 2014.

Recommendation 8. We recommended that the chief of staff consistently ensure that
all Designated Women’s Health Providers are designated with the women’s health
indicator in the Primary Care Management Module.

Concur

Target date for completion: July 31, 2014

Facility response: Designations in the Primary Care Management Module will be
updated to identify all CBOC providers as Women’s Health providers.




VA OIG Office of Healthcare Inspections                                                   18
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Michael Bishop, MSW, Team Leader
Contributors            Virginia Solana, RN, MA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Clarissa Reynolds, CNHA, MBA
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                   19
                    CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Southwest Health Care Network (10N18)
Director, New Mexico VA Health Care System (501/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Michael F. Bennet, Martin Heinrich, Mark Udall, Tom Udall
U.S. House of Representatives: Michelle Lujan Grisham, Ben Ray Lujan, Steve Pearce,
 Scott Tipton


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                   20
                         CBOC and PCC Reviews at New Mexico VA Health Care System, Albuquerque, NM
                                                                                       Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 Error! Hyperlink reference not valid.
e
  Reference used for PACT Compass data graphs:

 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013. 





VA OIG Office of Healthcare Inspections                                                                    21
